                  United States Department of the Interior
                             OFFICE OF INSPECTOR GENERAL
                                  Washington, DC 20240

                                                                      OCT 2 - 2009



Memorandum

To:


From:


Subject:      Report ofInvestigation - National Landscape Conservation System

       The Office of Inspector General has concluded an investigation based upon a complaint
from Bureau of Land Management (BLM) officials alleging that managers with the BLM's
National Landscape Conservation System (NLCS) were engaged in inappropriate relationships
with advocacy groups and possibly violated anti-lobbying statutes and policies.

        Our investigation determined that numerous activities and communication took place
between NLCS officials and nongovernmental organizations (NGO), including discussions about
the NLCS budget and BLM employees' editing brochures and producing fact sheets for a
specific NGO. Our investigative efforts revealed that communication between NLCS and certain
NGOs in these circumstances gave the appearance of federal employees being less than objective
and created the potential for conflicts of interest or violations of law. We also uncovered a
general disregard for establishing and maintaining boundaries among the various entities.

       We presented our findings to the U.S. Attorney's Office who told us that 18 U.S.C. §
1913, "Lobbying with Appropriated Monies," has no criminal sanctions associated with the it,
and thus, declined to prosecute in lieu of administrative action.

        We are providing this information to you for whatever administrative action you deem
appropriate. Please send a written response to this office within 90 days advising us of the
results of your review and actions taken. Also attached is an Accountability form. Please
complete this form and return it with your response. Should you need additional information
concerning this matter, you may contact me at (202) 208-5745.

Attachments
    Investigative Report
               National Landscape Conservation System Advocacy


                                    Report Date: September 29, 2009
                                   Date Posted to Web: October 2, 2009




This report contains information that has been redacted pursuant to 5 U.S.C. §§ 552(b)(2), (b)(6), and (b)(7)(C) of
the Freedom of Information Act. Supporting documentation for this report may be obtained by sending a written
                               request to the OIG Freedom of Information Office.
                                      RESULTS IN BRIEF

On September 5, 2008, the Office of Inspector General (OIG) received a complaint from the
Bureau of Land Management (BLM) Deputy Director Henri Bisson and a Deputy Ethics
Counselor. The complaint alleged that managers with the BLM National Landscape
Conservation System (NLCS), particularly Elena Daly, Director of NLCS and Community
Programs, and Jeff Jarvis, NLCS Division Chief, were potentially engaged in inappropriate
relationships with advocacy groups and possibly violated anti-lobbying statutes and policies.

Bisson and the Deputy Ethics Counselor identified two specific e-mails that they questioned as
potentially crossing the line of legitimate and acceptable communication. The first e-mail
discussed a budget presentation that Jarvis was scheduled to give to nongovernmental
organizations (NGOs). BLM officials explained that this caused concern because employees
were precluded from discussing budget information with nonfederal entities prior to release of
that information in the President’s budget. The second e-mail involved Jarvis requesting that an
NGO representative change NLCS legislation. BLM explained that this was potentially
problematic because BLM employees were prohibited from influencing the legislation.

Our investigation determined that numerous activities and communication took place between
NLCS officials and NGOs, including the following: (1) Jarvis’ discussion of the budget, (2)
Jarvis’ interaction with an NGO representative, (3) Daly’s interaction with the same
representative, (4) NLCS employees’ editing a brochure for an NGO, and (5) NLCS employees’
development of a fact sheet for the same NGO. Our investigative efforts revealed that
communication between NLCS and a few specific NGOs in these circumstances gave the
appearance of federal employees being less than objective and created the potential for conflicts
of interest or violations of law. We also uncovered a general disregard for establishing and
maintaining boundaries among the various entities.

We presented our findings to the Chief, Public Corruption, U.S. Attorney’s Office, District of
Columbia. He said that 18 U.S.C. § 1913, “Lobbying with Appropriated Monies,” was a
violation, but there were no criminal sanctions associated with the violation, and thus, declined
to prosecute in lieu of administrative sanctions. We are forwarding this report to the BLM
Director for any administrative action deemed appropriate.

                                        BACKGROUND

NLCS

The Department of the Interior (DOI) administratively established the NLCS under BLM in 2000
to “conserve, protect and restore nationally significant landscapes recognized for their cultural,
ecological and scientific values,” according to BLM’s Web site. The NLCS is composed of over
850 federally recognized areas and approximately 27 million acres of national conservation
areas, national monuments, wilderness areas, wilderness study areas, wild and scenic rivers, and
national historic and scenic trails.

Since the NLCS was administratively recognized, as opposed to being congressionally

                                                 1
recognized, it meant that the System could be dissolved at DOI Secretarial discretion.
Congressional recognition would remove the fate of the NLCS from secretarial discretion and,
instead, make it a permanent system within the BLM. Consequently, efforts to make the System
permanent were initiated and resulted in introduction of the National Landscape Conservation
System Act in the US Senate on April 18, 2007 and in the US House of Representatives on April
24, 2007. The House bill, H.R. 2016, was passed on April 9, 2008. The Senate version of the
bill, S. 1139, failed to be approved before the close of the 110th Congress.

The bill was reintroduced in the House as H.R. 404 on January 9, 2009. On March 30, 2009,
President Barack Obama signed the Omnibus Public Lands Management Act of 2009 into law.
The measure put into law the 26-million-acre National Landscape Conservation System within
the Bureau of Land Management.

Lobbying Prohibition

According to DOI ‘Guidelines on Prohibited Lobbying Activities,’ there are two statutes that
prohibit government employees from engaging in substantial grass roots lobbying campaigns
using telegrams, letters, or other forms of communication that directly or indirectly encourage
the public to contact members of Congress in support of, or in opposition to, legislation: 18
U.S.C. § 1913 and Interior Appropriations Acts.

18 U.S.C. § 1913 prohibits the use of appropriated funds for activities that directly or indirectly
are intended to influence members of Congress or to “favor, adopt, or oppose” any legislation or
appropriation. Section 402 of the 2006 Interior Appropriations Act prohibits the use of
appropriated funds “for any activity or the publication or distribution of literature that in any way
tends to promote public support or opposition to any legislative proposal on which Congressional
action is not complete.”

These anti-lobbying laws do not apply to activities of presidentially appointed, Senate-confirmed
officials. According to DOI guidelines on prohibited lobbying activities, employees in the
Senior Executive Service and General Schedule can provide information about pending
legislation, but their activities are limited by the anti-lobbying statutes. Factors that affect
whether employee activity violates the anti-lobbying laws include the type of activity, the
audience, the timing relative to the status of legislation, and the nature of the forum. Violation of
anti-lobbying law does not have to be explicit. DOI ethics guidelines state, “Where an appeal for
public support or opposition can be readily inferred from the context of the activity, even though
words like ‘write your congressional representative to express outrage about this’ are not used,
the activity may be a violation.”

As noted in the departmental Partnership Legal Primer, however, DOI does engage in
partnerships, in which its bureaus work with nonfederal entities to “foster” the mission of both
groups. These relationships are often established by contracts, personnel assignments, or
volunteering. DOI may engage in these partnerships when acting in accordance with authorities
provided by Congress. Congress has enacted statutes that limit what DOI can do in this regard
and how it must act within certain guidelines. Partnering activities must also conform with
ethics requirements, and funds must be spent consistent with their intended purpose.

                                                 2
                              DETAILS OF INVESTIGATION

We opened this investigation based on a complaint from BLM managers that Jeff Jarvis,
Division Chief, NLCS, may have disclosed proprietary budget information to NGOs and went
through the National Wildlife Federation (NWF) to lobby Congress, in violation of 18 U.S.C. §
1913, “Lobbying with Appropriated Monies.”

On July 17, 2008, Congressman Rob Bishop sent a letter to BLM requesting documents and
correspondence from key NLCS officials in an effort to “better understand the operation and
purpose” of the agency. The following September, Congressman Bill Sali also requested
documents concerning the NLCS.

While BLM was reviewing the documents responsive to Congressman Bishop’s request, the
BLM Public Affairs Office identified two e-mails it believed evidenced misconduct by Jeff
Jarvis, Division Chief, NLCS. BLM Deputy Director Henri Bisson consulted with Deputy
Ethics Counselor and then referred this matter to the Office of Inspector General for
investigation.

While investigating this complaint, we identified several additional issues associated with the
NLCS program: possible disclosure of proprietary information by Elena Daly, Director, NLCS,
to NGOs concerning the California Desert Conservation Area and assistance provided to the
groups by NLCS officials for a hunting and fishing brochure and a fact sheet.

Over the course of our investigation, we reviewed cooperative agreements, financial documents
for over 25 entities, and over 174,000 e-mails. We also interviewed over 30 department- ,
bureau-, and program-level officials and representatives from non-governmental organizations.

Disclosure of Budget Information

On May 31, 2006, a representative from the Wilderness Society, a nonprofit based in
Washington, D.C., sent an e-mail to Jarvis informing him that he was scheduled to speak about
BLM’s budget process at an NLCS Coalition meeting on June 6, 2006, as part of NLCS
Outreach Week.

Investigator’s Note: The NLCS Coalition eventually became known as the Conservation System
Alliance, which is composed of various groups engaging in historic preservation, education, and
recreation, with the aim to “protect, restore and expand” the NLCS, according to its Web site.

We interviewed Bisson, who said Jarvis confirmed to him that he gave a presentation at a
Wilderness Society meeting. He said Jarvis told him he provided attendees with a summary of
the budget process but left immediately after. Bisson said that if Jarvis stayed for the budget
discussion that followed or other parts of the meeting, this would have been inappropriate
because BLM employees could not engage in conversations with outside entities about specific
aspects of the bureau’s budget. They could, however, explain how the budget process worked,
he said.

                                                3
We interviewed Jarvis, who stated that he did not recall the June 6, 2006 meeting but said he
routinely discussed the BLM budget with NGOs. Jarvis said he was aware that there were very
specific rules governing what could and could not be discussed concerning the President’s
budget. He said that whenever he attended meetings with these types of groups to discuss the
BLM budget, he did not participate in any other portions of the meeting.

Lobbying Congress through the National Wildlife Federation

On November 28, 2007, Jeff Jarvis e-mailed a legislative representative for the NWF, a nonprofit
based in Reston, VA, stating: “I am in Northern New Mexico. We are looking at some protected
archaeological sites protected by law in Galisteo. The managers and staff want to be added to
NLCS. I don’t want to complicate anything, but what would it take to add a few small areas to
the legislation?” On December 5, 2007, the NWF legislative representative e-mailed Jarvis
asking him to contact her “off line” concerning the Galisteo Basin.

We interviewed the NWF legislative representative who worked for BLM as the special assistant
to the Director for five years. In 2006, she started working at NWF as the legislative
representative, she said, and she was responsible for advocating for public lands policy and
wildlife. She said her work included NLCS, mining reform, oil and gas reform, wildlife habitat,
and oil shale issues. She first met Jeff Jarvis and Elena Daly when she worked for BLM, she
said.

Agent’s Note: The NWF legislative representative left the NWF in October 2008 and began
working for the National Trust for Historic Preservation, a nonprofit in Washington, D.C., in
November.

The NWF legislative representative stated that NLCS issues accounted for approximately 60
percent of her workload. She said some of her lobbying responsibilities included educating
Congress and congressional staff, advocating for the NLCS Permanence bill, and advancing the
NLCS legislation through the committee process. She said NWF was part of the Conservation
System Alliance, which was a “loose alliance” of 80 organizations, including recreation, faith-
based, friends groups, and others that endeavored to make the NLCS permanent. She said the
House of Representatives version of the Permanence bill was passed in April 2008, and the
Senate bill was in an omnibus package made up of about 150 bills.

Agent’s Note: The Senate bill was reported by Committee to the floor on May 23, 2007, but was
never voted on.

The NWF legislative representative said Jarvis’ apparent request to “add a few small areas to the
legislation” occurred when the Conservation System Alliance was talking to “the Hill” about the
Permanence bill. She said she could not recall why Jarvis requested that the units be added to the
legislation. She said that when she received his e-mail, she referred it to the NGO point of
contact regarding the NLCS Permanence bill. The NWF legislative representative said she did
not talk to the NGO point of contact about Jarvis’ request.



                                                4
The NWF legislative representative said she was annoyed by Jarvis’ request, that she was very
busy and did not want to consider changing the legislation. She would not comment on whether
or not it was appropriate for a federal employee to ask her about adding to, or otherwise
influencing, legislation. She said that in the end, Jarvis’ requested changes were not made in the
draft legislation. She said that “just because a BLM employee requested adding something to the
legislation doesn’t mean NWF would do it.” The NWF legislative representative said BLM had
no role in developing the Permanence bill.

The NWF legislative representative said she e-mailed Jarvis and asked him to contact her “off
line” regarding the Galisteo Basin because talking on the phone was easier than having a
discussion via e-mail.

We interviewed the NGO point of contact. When asked about the e-mail from Jarvis asking
whether an area could be included in the NLCS legislation, she said that although she now
considered Jarvis’ question to have been regarding procedure, at the time of the e-mail, she was
not sure. “But any time for me that there’s any doubt in my mind, my rule of thumb is to not
engage in that type of dialogue,” she said. She said she did not think Jarvis was asking her to
forward legislation on his behalf but knew his question pertained to legislation and wanted to be
on the “safe side” and not answer. She said she later talked to the NWF legislative representative
about Jarvis’ e-mail at a meeting and told her she did not respond to him because she wanted to
“stay within the parameters of what’s proper.”

We interviewed Elena Daly, Director, NLCS, who told us that she asked Jarvis about the
November 27, 2007 e-mail. She said Jarvis told her that when he wrote it, he was “in the middle
of nowhere” and could not reach Daly or Pat Gubbins, then-Acting Deputy Director for NLCS.
Daly said that had Jarvis contacted her, she would have told him that it was not appropriate to
add anything to the legislation. Daly said Jarvis told her, “It was felony stupidity. I admit it.
But it was nothing more than that.”

We interviewed Jarvis, who said he e-mailed the NWF legislative representative to obtain
information about the process for adding a piece of land to the NLCS Permanence bill. He said
he was not asking her to add any units to the legislation and that “It’s not my legislation. I didn’t
draft that legislation. I wasn’t working with anybody on it.” Jarvis said that before he e-mailed
the NWF legislative representative, he attempted to contact someone in the BLM Office of
Legislative Affairs and Correspondence, but he was unable to reach her. He said the NWF
legislative representative did not answer his question, so he recommended that the Galisteo Basin
managers put together a proposal to add the Basin to the NLCS and submit it to the BLM New
Mexico State Office for consideration.

Jarvis said that when he spoke to the NWF legislative representative “offline,” she told him that
the New Mexico managers needed to write a proposal to add the units to the Permanence bill and
submit the proposal to the BLM New Mexico State Office. Jarvis said the proposal was never
submitted.

Jarvis recalled having discussed his November 27, 2007 e-mail with Daly and conceded that he
may have told her that his sending it was “felony stupidity,” referring to the potential appearance

                                                 5
problems of the e-mail when read by others. He denied that this characterization was an
admission that he was asking for units to actually be added to the legislation. While he was
aware of the prohibitions regarding lobbying activities by federal employees, he said, he did not
know whether a request to add units to the legislation would be an ethics violation.

NLCS Assistance Provided for Hunting and Fishing Brochure and Fact Sheet

Hunting and Fishing Brochure

On November 27, 2007, the NWF legislative representative sent an e-mail to numerous NLCS
and BLM officials, stating, “I’ve attached my first version of the detailed descriptions of the
NLCS units I hope to include in my brochure on opportunities for hunting and fishing in the
National Landscape Conservation System….If you have other strong recommendations, let me
know. I’ll happily consider….You all are my peer review, so I’m counting [on] your
help….Please get me your comments by COB on Friday [November 30, 2007].”

Dwight Fielder, Chief, Division of Fish, Wildlife, and Plant Conservation, BLM,
forwarded the NWF legislative representative’s e-mail to his staff and directed them to
review and comment on the brochure before Friday.

Bob Ratcliffe, Chief, Division of Recreation, BLM, also committed to have his staff
review and edit the document.

On November 28, 2007, NLCS Deputy Director David Hunsaker provided the NWF legislative
representative with detailed edits and feedback on her draft brochure. Two weeks later, the NWF
legislative representative e-mailed Daly, Jarvis, and Fielder, stating, “The brochure is moving
along….Everyone in the field and DC office has been wonderful about giving me very helpful
feedback….Dwight, I’d like to talk to you about how many copies you think you’ll need for the
conferences where you plan to distribute. Elena – what about our visitor centers and public
rooms?...I have a budget that is limited by my grant. Is there any hope of BLM printing extras
out of the Denver service center?...”

On March 4, 2008, the NWF legislative representative e-mailed several BLM officials regarding
the “Final of Hunting and Fishing in the System.” She wrote, “Hey all, we are done – finally!
My mini-print job is at the printer for my hill work, so let me know what you need to send to the
BLM printing folks. My designer is happy to work with you.” Fielder replied that evening,
“Thanks … We look forward to distributing this. I also challenge anyone to keep an accurate
count of how many copies get made….”

On March 11, 2008, the NWF legislative representative sent an e-mail to Bisson informing him
that the hunting and fishing brochure had been completed and was helping her effort: “I’ll send
you a hard copy of this after the insanity is over, but my long awaited Hunting and Angling in
the National Landscape Conservation System booklet is finally done – all 36 glorious and well
researched pages are out there and helping me lobby. I’ve attached the pdf.”

Twenty-five hundred copies of the brochures were purchased from EcoPrint. NWF paid for

                                                6
1,000 copies, and BLM paid for the remaining 1,500, plus overnight shipping costs to Arizona, at
a cost of $4,328.

When interviewed, Daly said she did not have any consternation about the NWF legislative
representative’s request to have the NWF brochure vetted by BLM employees. She said
reporters regularly called and asked for facts to be verified. When asked if BLM’s response
could have been viewed as assisting her with her lobbying efforts, Daly said BLM did not
participate in, or produce, the brochure. She said that would have involved sitting down with the
NWF legislative representative and writing it collaboratively and helping her with funding. She
said BLM employees only assisted her with fact-checking her draft. Daly said they needed to
ensure the information that got to the public was accurate and current. “I can’t control what
other people think,” she said. “You know, I can only tell you what I know. And if somebody on
the outside wants to take a look at that and judge me on that in isolation, I don’t care, because
that’s not reasonable.” She added, “I do not believe that is an appearance of impropriety. That is
my staff doing the job they were told to do.”

Daly averred that she did not know what the NWF legislative representative did for the NWF and
that she was not aware that her title was “Legislative Representative.” Daly agreed that
“Legislative Representative” meant lobbyist; she reiterated that the Conservation System
Alliance was an advocacy group that had the Permanence bill as part of its goal, including
increasing knowledge on the Hill and increasing the budget.

Investigator’s Note: In her statement provided on September 24, 2008, Daly explained that the
NWF legislative representative was a core group member of the Conservation System Alliance,
which she described as “an advocacy group” that she dealt with “cautiously.”

Daly stated that the NLCS did not pay any printing costs associated with the hunting and fishing
brochure. She added that the bureau’s public affairs office would be responsible for reviewing
the brochure before it was printed.

During his interview, Jarvis said BLM had provided other NGOs the same document review and
fact-checking service that was provided to the NWF legislative representative for the hunting and
fishing brochure; however, he could not provide an example. Instead, Jarvis said he always
made the same offer to anyone who was writing about the NLCS, whether it was an NGO, the
media, a researcher, or someone else. He said, “My job is to make this information available to
people. If it’s the true story of the Conservation System, I make that information available. I
don’t distinguish between types of groups or individuals.” Jarvis said the fact-checking service
was not provided routinely or weekly but “from time to time.” He said, “I don’t lobby, but if
people ask me, I answer the questions. I think that’s one of my jobs as a public servant… I want
to make sure they have the right [information]. My job. And I don’t care, I do it for anybody.
I don’t make a distinction between what they’re going to use the documents for.”

Dwight Fielder, Chief, Division of Fish, Wildlife, and Plant Conservation, BLM, stated that the
NWF legislative representative wanted the brochure reviewed to ensure the information in the
guide was factually correct and relevant information was not excluded. Fielder said he sent the
guide to BLM employees to look at particular NLCS units to ensure the information was

                                                7
accurate. Fielder said he was excited about the development of the guide because BLM could
also benefit from communicating the opportunities for hunting and fishing in the NLCS. Fielder
explained that Executive Order 13443 directed federal agencies to “do a better job of promoting
hunting and fishing on the public lands.” He said the Executive Order established a clear interest
and government purpose for developing the brochure, and the NWF legislative representative’s
brochure was a perfect vehicle for fulfilling a legitimate government purpose. Fielder said his
division paid to have copies of the brochure printed and that BLM received copies of the final
brochure.

Fielder said he did not know that the NWF legislative representative worked in a lobbying
capacity or that she used the hunting and fishing brochure to lobby for congressional support for
the NLCS. Fielder said he could not control whether the guide was used to lobby Congress.

When interviewed, the NWF legislative representative said she sent the hunting and fishing
brochure to BLM employees that she knew from working at BLM. She said she knew the level
of expertise of the employees and wanted their insight to help shape the document.

The NWF legislative representative said the NWF paid the entire balance owed for the printing
costs, then BLM reimbursed NWF for the copies it received. She explained that BLM manager
Dwight Fielder requested to use some of the brochures for BLM informational uses, so BLM
reimbursed the NWF for those it received. She further explained that the brochures were
designed to highlight the NLCS system and appeal to sportsmen, and they were distributed to
members of Congress to educate them about the hunting and fishing opportunities in the NLCS.
She described the brochure as an “educational piece,” differentiating it from a “lobbying piece,”
which would contain legislative efforts and include language such as “Please pass HR 1196.”

We interviewed Celia Boddington, Assistant Director for Communications, BLM. Boddington
said the NLCS did not send the hunting and fishing brochure to the Public Affairs Office for
review. She said it was the Public Affairs Office’s responsibility to review and approve all
publications where BLM coordinated with an external group. According to Boddington, the
hunting and fishing brochure was not the only circumstance in which NLCS failed to follow the
proper procedures established by the Office of Congressional Affairs and the Office of Public
Affairs. Boddington said NLCS “routinely ignored” the communications plans and long-
standing bureau policy.

Boddington provided the BLM policy concerning review and approval for publications,
Instruction Memorandum No. 2005-015. Published November 2, 2004, the policy emphasized
that it was “critical” that BLM employees followed the formal approval process that was
developed for all of the bureau’s written and electronic published products. Among numerous
elements that made up the BLM publication approval process, the policy stated, “Public Affairs
(WO-610) must review any publication or exhibit that is Bureauwide in scope, regardless of the
cost of that publication or exhibit. This review is in addition to the State-level review.”

Hunting and Fishing Fact Sheet

On March 28, 2008, the NWF legislative representative sent an e-mail to key BLM and NLCS

                                                8
officials, stating, “I Need help … So, the [National Rifle Association] has decided to remove
their support from the [Permanence bill]…I’d like to put together a fact sheet on what kind of
hunting and recreational shooting is allowed in the System….Can we pull together the brightest
in the bureau to help me with this? Make it a joint fact sheet?...Rumor has it the bill might go to
the floor for a vote on April 22 in the House as the sexy Earth Day bill, so we have to be quick.”

Three days later, the NWF legislative representative sent Jarvis an e-mail with the subject line
“Hunting Fact Sheet beginnings”. Attached to this e-mail was a document titled, “Fact Sheet on
Hunting and Angling HR 2016.doc.” Shortly thereafter, Jarvis sent the document to a BLM
wilderness specialist. This began a series of exchanges of versions of the “Fact Sheet on
Hunting and Angling HR 2016.doc” between Jarvis and the wilderness specialist.

On April 1, 2008, The NWF legislative representative e-mailed Jarvis, saying, “Jeff, thank you
again for being such a big help and whipping a team together yesterday for the fact sheet. It
seemed like old times – and that is a good thing!” Jarvis replied, “Making progress, I look
forward to seeing improvement this evening, and yes that was fun.” The next day, she wrote,
“The document is evolving very well. It is very important that we know all of the exceptions to
the rule ….We have to provide reassurances that making the NLCS permanent is not about the
politics of shutting down hunting. You do that systematically by destroying their argument.
They argue that the Secretary can limit hunting. Ok, so lets [sic] go back in time and determine
if Babbitt or Bush have closed off hunting in the BLM and in the NLCS. Make sense?”

On April 2, 2008, the NWF legislative representative sent an e-mail to Jarvis, stating, “I talked to
Henri [Bisson]. He knows the situation and said all Elena needs to do is walk it down to him to
get it done. Also, he said that the challenge was getting it through Celia’s folks. I remarked that
Celia has always been supportive and helpful. He said yes. I don’t think I need to say any more.
He is aware of what is going on and how this will help BLM’s position : )”. Later that day, Mali
sent a revised version of the fact sheet to Jarvis.

Also on April 2, 2008, the NWF legislative representative e-mailed several BLM and NLCS
officials, including Jarvis, a wilderness specialist, Bisson, Daly, and Pat Gubbins, then-Acting
Deputy Director for NLCS, to inform them that the NLCS bill was going to the floor of the
House for a vote on April 9. To Daly and Gubbins, she wrote, “One week from today the big
showdown at the Congressional corral. Strap on your six shooters, friends. We need a brief
chat.”

On April 7, 2008, the NWF legislative representative sent an e-mail to Jarvis, asking, “What is
the status of our project?” Jarvis replied that it was “Done” and going to receive final review the
next morning. He asked her to call him.

On April 9, 2008, the House version of the NLCS Permanence bill (HR 2016) passed.

On April 12, 2008, the NWF legislative representative e-mailed Daly and Jarvis a copy of the
Hunting and Fishing Fact Sheet. The NWF legislative representative wrote the following:




                                                 9
       Greetings! We are on for our regular Wednesday meeting this week at 12:30. You
       can expect us to be getting ramped up for the Senate fight and less inclined towards
       the serious policy stuff right now. But given the way things are moving, we should
       also be thinking about making sure Kempthorne and Caswell are on board to
       getting Bush to sign this bill. I’d hate to move this across the finish line and get
       disqualified for the race. I think the meeting will be at the Wilderness Society
       again. If you don’t hear from me, assume that is the case. I’ve attached the fact
       sheet we used for the last minute hunting and fishing amendment that was offered
       on the bill. It essentially innoculated [sic] us against that motion to recommit that
       could have killed the bill.

Investigator’s Note: The advanced document properties of this attachment indicated that the
company was “US Senate.” The advanced document properties also indicated that the document
had been created on Monday, March 31, 2008, at 9:43 a.m. Following more than 17 revisions of
the fact sheet, the NWF final PDF version of the fact sheet was almost exactly the same as the
version sent on April 2, 2008, from the wilderness specialist to Jarvis.

Investigators showed the NWF legislative representative this document, which she described as
direct lobbying materials, and she verified that she wrote it. She could not recall whether she
sent the document to NLCS managers but stated, “I can lobby them.”

When interviewed, Daly said BLM did not create a hunting and fishing fact sheet in response to
the NWF legislative representative’s request. She recalled that BLM was considering doing one-
page fact sheets on several topics, including hunting in the NLCS while, at the same time, the
NWF legislative representative wanted to educate hunters and anglers about recreation
opportunities in the NLCS.

Daly said she did not believe NLCS pulled together a team to respond to the NWF legislative
representative’s request. Investigators showed Daly the April 12, 2008 e-mail in which the NWF
legislative representative told her and Jarvis that the hunting and fishing brochure was used to
inoculate against a last-minute amendment to the NLCS Permanence bill. Daly said the BLM
fact sheet was public information. She speculated that BLM provided the information to the
NWF legislative representative just as it would provide it to any member of the public. Daly said
that as long as the information was noncontroversial, did not involve budget, did not involve
personnel, and was not Freedom of Information Act exempt or precluded, the NLCS employees
answered NLCS-related questions upon request.

When interviewed, Jarvis stated that the NLCS did not create a hunting and fishing fact sheet in
response to the NWF legislative representative’s request. He said he had developed hunting and
fishing fact sheets, but none of them were released to the public. Investigators showed Jarvis a
copy of the hunting and fishing fact sheet that she e-mailed to him on April 12, 2008.

Jarvis said his division had started working on fact sheets before the NWF fact sheet was
developed, but the BLM fact sheet on hunting and fishing was not developed until after the NWF
fact sheet. Jarvis said he used external documents, such as the NWF fact sheet, to assist him in
developing the BLM hunting and fishing fact sheet. Jarvis said that explained why some of the

                                               10
ideas and sentences in the BLM fact sheet were similar to the NWF fact sheet.

Jarvis could not explain why the April 2, 2008 version of the fact sheet sent to him from the
wilderness specialist was nearly the same as the NWF fact sheet that the NWF legislative
representative admittedly used to lobby congressional members and less similar to the BLM fact
sheet. He also could not explain why the NWF legislative representative thanked him for
“whipping a team together.”

NLCS Partnerships

NLCS officials told investigators that their relationships and communication with NGO
representatives supported an agency-wide initiative to develop and maintain partnerships with
these entities.

Daly stated that former DOI Secretary Bruce Babbitt wanted to create the NLCS similar to the
National Park Service, Forest Service, and the refuge system, but with a “twist.” Daly explained
that the “twist” was that BLM would continue to provide multiple uses on the lands, but with
conservation as the driving force. Daly said Babbit emphasized working with local communities
and providing for sustainability of natural resources, local economies, and local cultures.

During the George W. Bush administration, she said, then-Assistant Secretary Lynn Scarlett was
interested in partnership development and the Secretary’s “Four-C’s:” communication,
cooperation, and consultation in the service of conservation. Daly said partnership development
became part of her duties and responsibilities.

Daly said she distinguished partners from advocacy groups. “[A]dvocacy groups are those
groups that go to the Hill and lobby Congress,” she said. “They may come here and talk to the
Secretary; they may talk to the Director of BLM; they may do a variety of things to put their
cause forward.” Daly described partners as “those people who do the on the-ground stuff, who
work with our local offices, who come in here and will talk to me about problems that they’re
encountering, sometimes within their organization.” Daly added that some partners had
advocacy roles. She said the difference rested in the type of work they did and how NLCS
approached the relationships. Daly elaborated that advocacy groups were generally national in
scope, where partners generally focused on a certain geographic place.

She said the partnerships were usually memorialized in a written agreement, such as a
memorandum of understanding, cooperative agreement, assistance agreement, or similar
document. The agreements usually outlined a specific goal or task to be achieved by the
partnership, she said.

According to Daly, government employees could not engage in activities to further legislation.
She said that when working with partners that had an advocacy component, employees focused
on the parameters of the partnership. When a partner raised a topic that was off-limits for federal
employees, such as issues concerning the budget, she said, NLCS employees left or otherwise
ended the discussion. Daly said she had never had an NGO push a topic that was beyond the
parameters of the partnership.

                                                11
Daly said DOI had rules regarding employee interaction with partners. She said she had
extensive experience with ethics rules and guidelines related to lobbying activities, partner
relationships, and DOI efforts to clearly define the rules for partnerships. She had provided two
training sessions for BLM employees, she said, and the training included an ethics component
and a partnership component. “We talk about this stuff a lot,” Daly said. Moreover, she said she
recently directed a member of her staff to pull together definitive protocols for working with
partners. She said these protocols would be based on the career Senior Executive Service
protocols, which Daly described as “the strictest protocols the Department has.”

Jarvis stated that he did not work with any advocacy groups. He said he dealt primarily with
education partners. He said that not all NLCS partners were advocates, and not all the advocates
that NLCS worked with were partners. He defined an advocacy group as being involved in
political lobbying and said partners assisted in education, restored trails, and sponsored
conferences. Jarvis said some of the partnerships were formal and others were informal; mostly
his arrangements with partners were informal agreements derived by conversation or e-mail.

Jarvis stated that he had been recently appointed as Division Chief in early 2008, and he was
tasked with a new role of managing partnerships. However, Jarvis said, he had been responsible
for all components of the NLCS “back and forth” for the past 5 years. He said he did not receive
any formal training for handling partnerships but said repeatedly that he received ethics training
relating to partners and advocacy groups. He said he relied on his many years of experience to
guide him through his decision-making process. He added that he had not had formal training in
many areas but was considered an expert in some of those areas.

Jarvis said that in the past, when dealing with a potential conflict, he sought advice from the
Designated Agency Ethics Official. Jarvis said that if there was an issue that concerned him, he
also sought advice from Elena Daly or NLCS Deputy Director Jim Murkin. Jarvis stated, “I’ve
had some training in ethics. I don’t think I’ve ever done anything with a partner that made me
uncomfortable. I don’t think I’ve ever crossed the line.”

Bisson said NLCS employees and BLM managers developed relationships with NGOs, and this
was a requirement for senior executive managers. Bisson said Performance Element No. 1 of
Elena Daly’s Employee Performance Appraisal Plan mandated that an employee “[u]ses
collaborative techniques and tools, such as adaptive management or structured decision making,
to foster partnering and collaboration.” The plan also mandated that an employee “communicates
to employees the importance of results and customer focus as a critical component of the
organization’s mission” and “build trust and cooperative working relationships with stakeholders
both within and outside the organization.” Bisson said Performance Element No. 1 was
mandatory department-wide for all executive managers.

Janine Velasco, Assistant Director for Human Capital Management, BLM, said Performance
Element No. 1 was not intended to involve external groups (NGOs) in BLM internal processes.
Velasco said the performance element was not intended to provide an avenue to go above and
beyond BLM’s authority in developing partnerships. She said she did not believe the
performance element was intended to place priority on developing partnerships.

                                               12
We interviewed an Associate Solicitor, Division of General Law, Solicitor’s Office, and an
Assistant Solicitor, Branch of General Legal Services, Division of General Law, Solicitor’s
Office. The associate solicitor said the Department’s “push on partnerships is perilous; there are
lots of traps, [which is why employees] need to have an understanding of the legal landscape.”
He said that while the Department promoted partnership development, employees could not
forget about other rules.

The Associate Solicitor explained that there were three DOI offices that provided partnership
guidance: the Office of Partnership Initiatives, the DOI Ethics Office, and the Solicitor’s Office.
He stated that at least one bureau, NPS, provides extensive partnership training that was
developed in consultation with the Solicitor's Office and the Ethics Office. At the Departmental
level, training was provided to employees by the Office of Partnership Initiatives and the DOI
Ethics Office in an effort to educate employees on how to legally navigate relationships with
partners. However, he said, the training stressed ethics issues; lobbying issues were deferred to
the Solicitor’s Office, Division of General Law.

The Associate Solicitor said there was a gap in employee training regarding partnerships and
lobbying activity because the ethics training did not address lobbying issues in detail. He said
there was not a “holistic approach” to educating employees about partnerships. He said the
Ethics Office used to cover lobbying activities in its partnership training. He said that beginning
in 2005, the Designated Agency Ethics Officer and the Associate Solicitor for General Law
developed and led a week of executive decision-making training to help rising executives
identify potential problems and know where to turn for advice.

According to the associate solicitor, despite the information void regarding partnerships, the
partnership concept should not be abandoned but needed strong management. He said
partnership training needed to include rigor and procedures and emphasize transparency in
partner relationships.

We interviewed the deputy ethics counselor, BLM. She characterized the relationship between
NLCS and the NWF legislative representative as “incestuous.” She described the two e-mails
that initiated this investigation as “extremely embarrassing” and stated that NLCS “probably
crossed the line” in its contacts with the advocacy groups.

The deputy ethics counselor said BLM had not maintained an “arms-length” relationship with
the advocacy groups and appeared to have a “really cozy, cozy relationship” with grassroots
lobbying groups. She said she did not know if anti-lobbying laws were violated, but the contacts
presented an appearance of an inappropriate relationship.

The deputy ethics counselor said she had provided training for BLM managers for years.
Consequently, she said, none of the NLCS managers could claim that they did not know the
limits and prohibitions regarding partnership relationships or lobbying activities. She said no
one from NLCS consulted with her relating to contacts or relationships with advocacy groups.

Although the OIG requested records dating back to 2005, documents provided by the BLM
deputy ethics counselor show that Daly received mandatory ethics training that included
partnerships and/or collaboration on April 26, 2007, June 11, 2007, and June 26, 2008. The
                                                13
BLM records also indicated that Jarvis attended similar training on November 17, 2006, April
26, 2007, and June 26, 2008, even though he was not subject to the mandatory training.

The deputy ethics counselor pointed out, “Regardless of whether employees are required to take
annual ethics training due to their identification as financial filers, employees bear some
responsibility for ensuring that they are aware of the ethics rules and regulations… ignorance is
no excuse.”

Investigator’s note: The deputy ethics counselor retired from BLM on March 1, 2009.

                                          SUBJECT(S)

Elena Daly, former Director, NLCS
Jeff Jarvis, Division Chief, NLCS

                                         DISPOSITION

We presented our findings to the Chief, Public Corruption, U.S. Attorney’s Office, District of
Columbia. He said that 18 U.S.C. § 1913, “Lobbying with Appropriated Monies,” was a
violation, but there were no criminal sanctions associated with the violation, and thus, declined
to prosecute in lieu of administrative sanctions. We are forwarding this report to the BLM
Director for any administrative action deemed appropriate.




                                                14
